              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Well Decommissioning
Resolution  of SignificantActivities
                           Finding at
Investigation
the Hanford Site
              Recommendations




DOE/IG-0670
      -                                     November
                                              January 2002
                                                      2005
